                        Sensitive Technology Information
                           Was Posted on the Internet

                                     February 2004

                        Reference Number: 2004-20-046




This report has cleared the Treasury Inspector General for Tax Administration disclosure review
process and information determined to be restricted from public release has been redacted from
                                        this document.
                                        DEPARTMENT OF THE TREASURY
                                          WASHINGTON, D.C. 20220




INSPECTOR GENERAL
     for TAX
  ADMINISTRATION




                                             February 27, 2004


          MEMORANDUM FOR CHIEF, MISSION ASSURANCE
                         CHIEF INFORMATION OFFICER


          FROM:                  Gordon C. Milbourn III
                                 Acting Deputy Inspector General for Audit

          SUBJECT:               Final Audit Report - Sensitive Technology Information Was
                                 Posted on the Internet (Audit # 200320041)

          This report presents the results of our review to determine whether sensitive Internal
          Revenue Service (IRS) information could be obtained on the Internet.
          In summary, sensitive information relating to IRS computer systems was posted on the
          IRS’ Internet web sites and third-party web sites. This information included detailed
          Modernization blueprint documents and the Internal Revenue Manual on Information
          Technology (IT), which the IRS has designated as Official Use Only (OUO). We also
          found several newsgroup postings that divulged specific hardware and software used by
          the IRS, including detailed information regarding a major production system. With this
          information, a hacker would have a better opportunity to successfully attack the IRS’
          infrastructure and potentially gain access to taxpayer information.
          The IRS can control information on its web sites and, to some extent, what is available
          on third-party web sites. The information posted to third-party web sites appears to
          have been gleaned from the IRS’ own web sites and from presentations given by IRS
          employees.
          Neither the employees responsible for providing information for Internet sites nor the
          employees responsible for adding the information to the web sites evaluated the
          sensitivity of the information, other than to ensure taxpayer information was not posted.
          The IRS has no guidelines to assist employees in assessing security risks before
          posting information on the Internet.
          The IRS Office of Mission Assurance has initiated efforts to establish standardized
          procedures and guidelines for reviewing and classifying sensitive information, which
          includes information to be posted on the Internet. As of December 2003, this Handbook
          was in draft format. The draft Handbook addresses the issue of unnecessarily posting
                                            2

sensitive information on the Internet, but does not contain specific examples of what
should and should not be allowed.
The risk of divulging sensitive information could also be limited if employees complied
with the IRS’ Internet usage policy. The Internet policy prohibits the posting of agency
information to existing sites without approval from the appropriate management official.
We recommended that the Chief, Mission Assurance, continue efforts on finalizing the
procedures, guidelines and training material for identifying sensitive information;
coordinate with the Office of Electronic Tax Administration, the Office of Servicewide
Policy, Directives, and Electronic Research, and the Office of Governmental Liaison and
Disclosure to distribute the guidelines throughout the IRS; and periodically remind all
employees and contractors of the IRS’ Internet Usage Policy. For the Procurement web
site, we recommended that the Chief Information Officer restrict access to sensitive
contracting information by assigning user accounts and passwords to only those with a
need to know.
Management’s Response: The Chief, Mission Assurance, concurred with our
recommendations. The Office of Mission Assurance will finalize guidelines for
identifying OUO information, develop training modules for use by document owners,
ensure training material is fully integrated in existing policies and procedures, and
include special emphasis on disclosure of IT information in its annual Security
Awareness training. To restrict sensitive technical information on the Procurement web
site, the Director, Procurement, has implemented the Federal Technical Data Solution,
a web-based application that uses user accounts and passwords for access.
Management’s complete response to the draft report is included as Appendix IV.
Please contact me at (202) 622-6510 if you have questions or Margaret E. Begg,
Assistant Inspector General for Audit (Information Systems Programs), at
(202) 622-8510.
                                         Sensitive Technology Information
                                            Was Posted on the Internet




                                                  Table of Contents


Background .............................................................................................. Page   1
Sensitive Internal Revenue Service
Information Is Available on the Internet .................................................... Page               1
         Recommendation 1: .........................................................................Page 6
         Recommendations 2 and 3: .............................................................Page 7
         Recommendation 4: .........................................................................Page 8

Appendix I – Detailed Objective, Scope, and Methodology...................... Page                               9
Appendix II – Major Contributors to This Report ...................................... Page 11
Appendix III – Report Distribution List ...................................................... Page 12
Appendix IV – Management’s Response to the Draft Report ................... Page 13
                              Sensitive Technology Information
                                 Was Posted on the Internet

                                    The Internet offers a vast library of information to millions
 Background
                                    of computer users. The Internal Revenue Service (IRS)
                                    makes wide use of the Internet to provide important
                                    information to the general public and to contractors
                                    interested in conducting business with the IRS. To facilitate
                                    effective customer service, the IRS has placed many of its
                                    policies and procedures on the Internet to assist taxpayers
                                    and practitioners.
                                    The Internet has no rules governing the content of
                                    information available to users, and virtually anyone can post
                                    information to web sites. As a result, the IRS is faced with
                                    the risk that employees could knowingly or unknowingly
                                    make sensitive information available to the public.
                                    Although there are other avenues used to share information,
                                    such as IRS-sponsored tax forums and public briefings, we
                                    focused our review on sensitive IRS technology information
                                    available on the Internet. Hackers routinely search the
                                    Internet for useful information prior to attacking a target
                                    organization. For example, if a hacker can identify the type
                                    of hardware or software used by an organization, he or she
                                    could potentially exploit the known vulnerabilities
                                    associated with those components. The IRS must be
                                    particularly mindful of the security risks associated with
                                    posting technology information on the Internet to prevent
                                    unauthorized access to tax information.
                                    This audit was conducted at the IRS National Headquarters
                                    in Washington, D.C., from June through December 2003 in
                                    accordance with Government Auditing Standards. Detailed
                                    information on our audit objective, scope, and methodology
                                    is presented in Appendix I. Major contributors to the report
                                    are listed in Appendix II.
                                    Sensitive information relating to IRS computer systems was
Sensitive Internal Revenue
                                    posted on the Internet. Applying the same techniques we
Service Information Is Available
                                    used, hackers can easily find this information and use it to
on the Internet
                                    attack the IRS’ infrastructure and potentially gain access to
                                    tax information.
                                    We categorized our results into three areas. Specifically,
                                    sensitive information was:
                                      - Posted on IRS Internet web sites.
                                                                                         Page 1
Sensitive Technology Information
   Was Posted on the Internet

          - Communicated by IRS employees on Internet
            newsgroups.
          - Posted by outsiders on the Internet.
      The IRS can control information on its web sites and, to
      some extent, what is available on third-party web sites by
      establishing policies and guidelines for protecting sensitive
      IRS information. The risk of divulging sensitive
      information, however, is directly dependent on employees’
      familiarity and compliance with those policies and
      guidelines.
      Sensitive information posted on IRS web sites
      An agency’s most direct path for providing information to
      the public is often its own Internet web site. Agencies must
      strike a balance between providing appropriate information
      and offering too much information. We searched through
      the IRS’ two public web sites1 and identified information
      that we believe should not have been available to the public.
      Specifically, on the IRS Procurement web site, we
      identified:
      •    IRS Modernization blueprint documents. These
           documents contained information on the IRS’
           infrastructure, including hardware and software to be
           used in specific Modernization projects.
      •    The Internal Revenue Manual (IRM), Part II,
           Information Technology. In September 2002, the IRS
           Technology Security Committee decided to reclassify
           this section of the Manual as Official Use Only (OUO)
           and remove it from public access. The Manual contains
           sensitive technology information, including password
           policy and computer operating systems and software
           used.




      1
        The two IRS web sites accessible for public use are the IRS’
      Procurement web site and the IRS’ Digital Daily. There are other IRS
      web sites designed for specific business purposes, and they are restricted
      from general public viewing.

                                                                      Page 2
Sensitive Technology Information
   Was Posted on the Internet

      •   IRS internal Internet Protocol addresses and Domain
          Name System names, along with the platforms and
          applications used.
      •   IRS floor plans of a computing center. This document
          contained the location and the number of IRS occupied
          floors, including the computer room location.
      On the IRS Digital Daily web site, we identified:
      •   The Statistics of Income (SOI) computer infrastructure.
          An SOI web page presented a recruiting announcement
          that contained specific information on computer
          platforms, operating systems, and applications used
          within its office. The SOI web pages also identified
          office locations.
      Both Procurement and SOI personnel stated they only
      performed a cursory review of the documents and did not
      consider the inherent security risks associated with the
      information we found. Procurement personnel stated that
      their role is to serve as the administrative function for
      placing the contents onto the web page. They also stated
      that business units dictate the contents of their postings,
      especially for contract solicitations. Business unit owners
      stated that they did not review for, and were not aware of,
      the risks of posting sensitive information, though they did
      ensure they did not disclose taxpayer information.
      The Department of Homeland Security requires executive
      branch agencies to develop procedures to “identify and
      safeguard homeland security information that is sensitive
      but unclassified” and recently proposed regulations
      designed to protect critical infrastructure information from
      disclosure to the general public. The IRS had no policy or
      guidelines for information being posted to agency web sites
      regarding security concerns. The Electronic Tax
      Administration office developed local procedures on content
      reviews for the IRS’ Digital Daily, but the procedures did
      not address security risks.
      The IRS Office of Mission Assurance has drafted a
      Sensitivity Handbook to standardize procedures and
      guidelines for reviewing and classifying sensitive
      information, including information to be posted on the
                                                           Page 3
Sensitive Technology Information
   Was Posted on the Internet

      Internet. The Handbook, still in draft as of December 2003,
      addresses the issue of unnecessarily posting sensitive
      information on the Internet, but does not contain specific
      examples of what should and should not be posted. The
      Mission Assurance senior advisor assigned to oversee the
      development of the Handbook stated that they are aware of
      this deficiency and are in the process of developing training
      modules to address the technical and social issues related to
      posting sensitive information on the Internet.
      Sensitive information communicated by IRS employees
      on newsgroups
      IRS employees can also post agency information on Internet
      newsgroup web sites.2 Internet newsgroups provide an open
      forum where any Internet user can post questions or respond
      to questions posted on the forum. In the IT industry, these
      newsgroups enable users to share information and get
      practical solutions to technical computer problems.
      Generally, users will provide their business email address as
      their username for these postings.
      We found approximately 830 postings where IRS
      employees posted questions and answers on newsgroup web
      sites. In all instances, the employees used their official IRS
      email addresses (employee first name.employee last
      name@irs.gov).
      We judgmentally selected and reviewed 256 of the
      newsgroup postings and found 84 that contained sensitive
      IRS computer information. Of the 84 postings, 77 were
      from @irs.gov authors and 7 were from @ci.irs.gov authors.
      The postings divulged specific hardware and software used
      by the IRS, including detailed information regarding a major
      production system. For example:
      •   In a Microsoft SQL server newsgroup, an IRS employee
          stated that she was unable to successfully install service
          pack 3 to a Microsoft SQL server, version 7.0. A hacker
          could track this information along with related


      2
        Examples of newsgroup web sites include Microsoft (e.g.,
      Microsoft.public.xxx with xxx being a specific MS program) and IBM
      (e.g., bit.listserv.ibm-main) newsgroups.
                                                                Page 4
Sensitive Technology Information
   Was Posted on the Internet

          information from the National Institute of Standards and
          Technology web site, which shows there are
          11 vulnerabilities with SQL 7.0 running service pack 2.
      •   In a Microsoft Internet Explorer newsgroup, an IRS
          employee stated he had attempted to install service
          pack 1 on Internet Explorer, version 5.5, but ran into
          problems that he did not encounter without the service
          pack. A hacker could ascertain from this posting that
          the IRS had workstations without service pack 1
          installed. As of the date of the posting in March 2001,
          there were 10 published vulnerabilities. As of
          October 2003, there were 86 published vulnerabilities
          for this situation.
      The risk of divulging sensitive information could be limited
      if employees complied with the IRS’ Internet usage policy.
      The policy contains strict prohibitions against posting
      agency information to external newsgroups, bulletin boards,
      or other public forums without approval from the
      appropriate management official. The IRS employees were
      either not aware of the prohibitions or ignored them for the
      convenience of asking knowledgeable persons outside the
      IRS for advice. In either case, the security risks were not
      addressed.
      Newsgroup and bulletin board postings are controlled by
      independent organizations and may be retained on the
      Internet for a long time. Some of the sensitive information
      identified during our research dated back to April 1998.
      Sensitive information posted by outsiders on the Internet
      As part of our review, we conducted Internet searches on
      certain key words3 in conjunction with the phrase “IRS.”
      We identified over 68,000 matches when searching for these
      key words. While judgmentally reviewing over 1,000 of
      these matches, we identified IRS sensitive information that
      had been posted on commercial or private web sites. Using
      this information, a hacker would have a better opportunity


      3
       Examples of key words included “firewall,” “LEM” (Law
      Enforcement Manual), “STIR” (Security and Technology Infrastructure
      Release), and “Oracle.”
                                                                Page 5
Sensitive Technology Information
   Was Posted on the Internet

      to attack the IRS’ infrastructure. We found the following
      examples of IRS sensitive information placed by outside
      individuals or organizations:
         •   News articles with IRS technology describing the
             Secure Dial-In project in extensive detail.
         •   Solicitation for contract work containing sensitive
             information relating to the IRS’ password policy.
         •   Network diagram of the IRS’ Security and
             Technology Infrastructure Release (STIR) on a
             non-IRS website illustrated the IRS’ three-portal
             strategy. The STIR is the security architecture for
             the IRS’ modernized systems.
         •   A section of the Law Enforcement Manual on a
             non-IRS website.
         •   A job resumé of a former IRS employee that
             divulged hardware, software, and versions of IRS
             computer systems.
      These postings were outside the control of the IRS.
      However, in most of these instances, the information posted
      appears to have been obtained from the IRS web sites at one
      time or from other internal sources, such as presentations
      given by IRS employees. Sufficient attention had not been
      paid to the security risks of providing sensitive computer
      information.

      Recommendations

      The Chief, Mission Assurance, should:
      1. Continue efforts to finalize procedures and guidelines
         for identifying sensitive information. The draft
         Sensitivity Handbook should address both information
         provided on the IRS Internet sites and the distribution of
         information to third parties. We suggest that the
         Handbook provide examples to demonstrate what
         information should and should not be posted. Training
         modules on this material should be developed for use by
         each business unit.


                                                           Page 6
Sensitive Technology Information
   Was Posted on the Internet

         Management’s Response: The Chief, Mission
         Assurance, will finalize guidelines for identifying OUO
         information and develop training modules for use by
         document owners in each business area.
      2. Coordinate with the Office of Electronic Tax
         Administration; the Office of Servicewide Policy,
         Directives, and Electronic Research; and the Office of
         Governmental Liaison and Disclosure to ensure that the
         guidelines are distributed throughout the IRS to Internet
         content providers, IRM authors, and Disclosure Officers,
         so they are aware of their responsibilities to identify and
         properly classify sensitive information prior to posting
         to the Internet.
         Management’s Response: The Chief, Mission
         Assurance, will coordinate with the offices in our
         recommendation to ensure that the OUO guidance and
         training material are fully integrated in existing
         information classification, document management, and
         disclosure policies and procedures.
      3. Periodically remind all employees and contractors of the
         IRS’ Internet Usage Policy implemented in May 2002.
         Emphasize the reasons why it is important not to
         disclose sensitive information, particularly when using
         newsgroups.
         Management’s Response: The Office of Mission
         Assurance will include special emphasis on disclosure
         risks related to IT information in its annual Security
         Awareness training. It will work with the Office of
         Communication and the Office of Governmental Liaison
         and Disclosure to develop employee communications in
         this area in the interim.




                                                           Page 7
Sensitive Technology Information
   Was Posted on the Internet

      The Chief Information Officer should:
      4. Restrict access to sensitive contracting information on
         the Procurement web site to only those with a need to
         know. We recognize that certain sensitive information
         is pertinent for the solicitation of contractors and needs
         to be accessible on the web site. Portions of the web site
         containing sensitive information should be separated
         from the general information web pages. In addition,
         user accounts and passwords should be required to
         access sensitive areas.
         Management’s Response: On October 1, 2003, the
         Director, Procurement, implemented the Federal
         Technical Data Solution to post sensitive technical
         information during the solicitation phase of the
         acquisition cycle on its web site. This web-based
         application uses user accounts and passwords to control
         and restrict access to sensitive information.




                                                          Page 8
                                    Sensitive Technology Information
                                       Was Posted on the Internet

                                                                                                      Appendix I


                           Detailed Objective, Scope, and Methodology

The overall objective of this review was to determine whether sensitive Internal Revenue Service
(IRS) information could be obtained from the Internet.
I.       To evaluate the adequacy of security policies and procedures that have been established
         to guide IRS employees in placing information on the Internet, we:
         A.       Reviewed written guidance issued by the IRS and the Department of the Treasury,
                  including Internal Revenue Manual 25.10 (Information Technology Security
                  Policy and Standards), Policy on Limited Personal Use of Technology, IRS Policy
                  on Electronic Communications, Guidance for All IRS Personnel on Internet
                  Access from Government Computers, Treasury Directive 87-04 (Personal Use of
                  Government Office Equipment Including Information Technology), and
                  Guidelines to Identify Sensitive Information.
         B.       Researched other related Federal Government guidance, including issuances by
                  the National Institute for Standards and Technology and the General Accounting
                  Office.
II.      To evaluate the effectiveness of security policies and procedures implemented for placing
         information on the Internet, we:
         A.       Conducted an Internet search using Google for known hardware and software
                  used by the IRS; for newsgroup postings with authors such as @irs.gov,
                  @ci.irs.gov, @csirc.irs.gov, @irs.treas.gov, and @irs.ustreas.gov; and for other
                  public forums that the IRS employees may post sensitive IRS information
                  technology (IT) security information without authorization.
         B.       Identified over 68,000 matches from our Internet search queries. Based on
                  the preview text of the queries,1 we judgmentally selected and reviewed
                  256 newsgroup matches and 1,012 other postings for sensitive IRS computer
                  information.
         C.       Scanned the IRS’ two public web sites – the IRS’ Procurement and Digital Daily
                  web sites – for sensitive IT security information.




1
 The Internet search provided results in order starting from the highest to lowest potential for matching the query
criteria. We were then able to judgmentally select those matches that contained sensitive information.


                                                                                                             Page 9
                   Sensitive Technology Information
                      Was Posted on the Internet

D.   Contracted with an outside vendor to identify sensitive IRS IT information on the
     Internet.
E.   Contacted IRS personnel to identify security policies and procedures implemented
     for placing information on the Internet and the reasons why sensitive IT security
     information was posted on the Internet.




                                                                               Page 10
                            Sensitive Technology Information
                               Was Posted on the Internet

                                                                                Appendix II


                           Major Contributors to This Report

Margaret E. Begg, Assistant Inspector General for Audit (Information Systems Programs)
Steve Mullins, Director
Kent Sagara, Audit Manager
Louis Lee, Senior Auditor
Midori Ohno, Senior Auditor
Charles Ekholm, Auditor




                                                                                         Page 11
                            Sensitive Technology Information
                               Was Posted on the Internet

                                                                              Appendix III


                                Report Distribution List

Commissioner C
Office of the Commissioner – Attn: Chief of Staff C
Deputy Commissioner for Operations Support OS
Chief, Agency-Wide Shared Services OS:A
Chief, Communications and Liaison CL
Chief, Information Technology Services OS:CIO:I
Director, Electronic Tax Administration OS:CIO:I:ET
Director, Office of Governmental Liaison and Disclosure CL:GLD
Director, Office of Research, Analysis, and Statistics RAS
Director, Office of Servicewide Policy, Directives, and Electronic Research RAS:SPDER
Director, Procurement OS:A:P
Director, Web Services OS:CIO:I:W
Acting Director, Portfolio Management OS:CIO:R:PM
Acting Director, Regulatory Compliance OS:MA:RC
Acting Director, Strategy, Program Management, and Personnel Security OS:MA:SP
Deputy Chief Financial Officer, Department of the Treasury
Audit Liaisons:
        Chief, Mission Assurance OS:MA
        Chief Information Officer OS:CIO:M




                                                                                    Page 12
                               Sensitive.Technology lnformation
                                  Was Posted on the Internet

                                                                                                 Appendix IV


                     Management's Response to the Draft Report


                                    6FYA&YkE&Xkr
                            DEPAR~M~W ~
                                 INTERNAL RWFNUE SERVICE
                                   WWHINGTO)I.D.C. 20124

                                          8 ; ... i   '   ..




    MEMORANDUM FOR ACTING DEPUTY INSPECTOR GENERAL FOR AUDIT

    FROM:                  Daniel Galik    %&d
                           Chief Mission Assurance 0S:MA

    SUBJECT:                                      -
                           Draft Audit Report Sensitive InformationTechnology Data Was
                           Posted on th%ht&rpetJAudit# 200320041)
                                           . -
    While requiring the development of information classlfication and management
    procedures for Sensiti~ebut Unclasslfied (SBU) homeland security and crltlcal
    infrastructure information, neither the Office of Management and Budget nor the
    Department of Homeland Security has developed detailed auidance for executive
    branch agencles for this effort. despite the absence of su& direction, the Internal
    Revenue Servlce has developed signifidant policy for classlfication of information,
    document management, and subsequent information release. IRM 1.9.3, Safeguarding
    National Securlly lnformatlon and lF&l 11t332, Classificationof Documents are our
    primary reference sources. AS a ge8'dra~:njj3classification of such SBU Information
    wlthln IRS, Offlclal Use Only (OUO) and Limited Official Use (LOU) category
    designation, Is done by the business owner in conjunction with the Office of Disclosum.
    Once lnformatlon receives a classification designation, current policy requires consistent
    treatment regardless of medium of transmission.

    Balancing lnformatlon sharing requirements, public rights to access, and
    securily/p~ivacyconcerns has always been challenging. Nowhere has this been truer
    than in the area of information technology (IT) data. Your report understandably
,   focuses on this particular category ef;informatlon, and we concur that there is a need for
    further guidance in this area. We SCIQgeStMat you eliminate global references to
    senslthfe IRS information that detract from the IT emphasis in your report.

    Unlike Section 6103 data. there are no clear formulas for desianatina OUO or LOU
    lnformatlon technology information. General references to hardwars platform types and
    owretina environments do not. in and of themselves, create a sufficient risk to warrant
    these designations. Even discussions of service pack and patch versions are not
    necessarily rlsky In the absence of detailed information on security configurations and
    system deployments. Of the'examp!gsyou, cited, we agree with your assessment of
    sensitivity for the IT information on the Procurement web site and on third party web
    sites only.




                                                                                                     Page 13
                           Sensitive Technology Information
                             Was Posted on the Internet




 Iam pleased to inform you that Recommendation 4 of your report has already been fully
 implemented. With the implementation of the Federal Technlcal Data Solution
 (FedTeDS) October 1, 2003, sensitive contracting information is no longer posted on
 Ihe Procurementweb site. FedTeDS is a web-based application that safeguards
'sensltlve technical information during the solicltatlon phase of the acquisition cycle. It
 provldes user accounts and passwords for access to this information. The Office of
 Procurement owns and manages the Procurement Web Site and is the responsible
 business area for this recommendation. Mlsslon Assurance Is committed to completmg
 our work, on your other three recommendations, this fiscal year. Please see the
 attached Corrective Action Plan for more detail.

We appreciate the opportunity to comment on this draft audit report. Please contact me
on (202) 622-8910 if you would like to discuss this further. Technical questions may be
directed to Deborah England. She can be reached on (202) 622-4561.

Attachment

cc: Dlrector, Procurement 0S:A:P
    Chief InformallonOfflcer 0S:CIO..    :


    Director, Office of Governmental Liaison and Disclosure CL:GLD
    Dlrector, Office of Servicewide Policy, Directives,
     and Electronic Research RAS:SPDER
    Director, ElectronicTax Administration 0S:CIO:I:ET




                                                                                              Page 14
                       Sensitive Technology Information
                         Was Posted on the Internet




                                                  -
Management Response to Draft Audlt Report Sensltlve lnformatlon
Technology Data Was Posted on the Internet (Audl! # 200320041)

RECOMMENDATION # 1: The Chief, Mission Assurance should - Continue
efforts to finalize procedures and guidelines for identifying sensitive information.
The draft Sensitivity Handbook should address both information provided on the
IRS Internet sites and the dlstrlbution of information to third parties. We suggest
that the Handbook provide examples to demonstrate what data should and
should not be posted. Training modules on this material should be developed for
use by each buslness unit.


CORRECTIVE ACTION TO RECOMMENDATION#I:                    The Chief, Mission
Assurance will finalize guidelines for identifying OUO information. Training
modules on the material will be developed for use by document owners in each
buslness area.


IMPLEMENTATIONDATE:
October 2005


RESPONSIBLE OFFICIAL:
Director, Assurance Programs 0S:MA:AP


CORRECTIVE ACTION MONITORING PLAN:
Overall programmatic responsibility for monitoring implementation of all
corrective actions is centralized with the Office of Mission Assurance. Mission
Assurance will report program status as part of its Business Performance Review
on a quarterly basis.




                                                                                       Page 15
                        Sensitive Technology Information
                          Was Posted on the lnternet




Management Response to Drafl Audlt Report - Sensltlve lnformetlon
Technology Data Was Posted on the Internet (Audlt # 200320041)


RECOMMENDATION1 2 : 'The Chief, Mission Assurance should - Coordinate
wlth the Office of ElectronicTax Administration; the Officeof Servicewide Pollcy,
Directives, and Electronic Research; and the Office of Governmental Liaison and
Disclosure to ensure that the guidelines are distributed throughout the IRS to
Internet content providers, IRM authors, and Disclosure Officers, so they are
aware of thelr responsibilitiesto i d e n t i and properly classify sensitive
information prior to posting to the Internet.


CORRECTIVE ACTION TO RECOMMENDATION#2: The Chlef, Mlsslon
Assurance will coordinate with the Office of ElectronicTax Administration; the
Office of Servicewide Pollcy, Directives, and Electronic Research, and the Office
of Governmental Liaison and Disclosure to ensure that the OUO guidance
training material is fully integrated in existing information classificatlon, document
management, and disclosure policies and procedures.


IMPLEMENTATION DATE:
                                           -
Interim OUO Guidance Training Material October 2004
Final OUO Guidance Training Material - October 2005


RESPONSIBLE OFFICIAL:
Director, Assurance Programs 0S:MA:AP


OORRECTIVE ACTION MONITORING PLAN:
Overall programmatic responsibility for monitoring implementation of all
corrective actions is centralized with the Office of Mission Assurance. Mission
Assurance will report program status as part of Its Business Performance Review
on a quarterly basis.




                                                                                         Page 16
                      Sensitive Technology Information
                        Was Posted on the lnternet




Management Response to Draft AudR Report - Sensltlve lnformatlon
Technology Data Was Posted on the Internet (Audit # 200320041)


                                                                  -
RECOMMENDATION C 3: The Chief, Mlssion Assurance should Periodically
remind all employees and contractors of the IRS' Internet Usage Policy
Implemented In May 2002. Emphasizethe reasons why it is Important not to
dlsclose sensitive inforrnatlon, particularly when using newsgroups.

CORRECTIVE ACTION TO RECOMMENDATION#3: The m i c e of Mission
Assurance will include special emphasis on disclosure risks related to IT
lnformatlon In its annual Security Awareness training. Further, it will work with
the Offlce of Communication and Government Liaison and Disclosureto develop
employee communications in this area in the interim.


IMPLEMENTATION DATE:
September 2004


RESPONSIBLE OFFICIAL:
Director, Assurance Programs 0S:MA:AP


CORRECTIVE ACTION MONITORING PLAN:
Overall programmatic responsibility for monitoring implementation of all
corrective actions is centralized with the Office of Mission Assurance. Mission
Assurance will report program status as part of Its Buslness Performance Review
on a quarterly basis.




                                                                                    Page 17
                      Sensitive Technology lnformation
                        Was Posted on the lnternet




                                                 -
Management Response to Draft Audlt Report Sensltlve Information
Technology Data Was Posted on the Internet (Audlt # 200320041)

 RECOMMENDATION # 4: The Chief Information Officer should Restrict-
access to sensitive contracting informationon the Procurement web slte to only
those with a need to know. We recognize that certain sensitive data is pertinent
for the solicitatioil of contractors and needs to be accessible on the web site.
Portions of the web site containing sensitive informationshould be separated
from the general informationweb pages. In addition, user accounts and
passwords should be required to access sensitive areas.

CORRECTIVE ACTION TO RECOMMENDATION#4: On October I,                    2003, the
Director, Procurement implemented the Federal Technical Data Solution
(FedTeDS) to post sensitive technical information during the solicitation phase of
the acquisition cycle. This web-based application utilizes user accounts and
passwords for access lo this information.


IMPLEMENTATION DATE:
Completed - October 1,2003


RESPONSIBLE OFFICIAL:
Director, Procurement 0S:A:P


CORRECTIVE ACTION MONITORING PLAN: Completed.




                                                                                     Page 18
